APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Seventh Circuit, United States v.
Huskisson, No. 18-1335 (June 5, 2019) ...... App-1
Appendix B
Oral
Order
Denying
Defendant’s
Renewed Motion to Suppress, United
States District Court for the Southern
District of Indiana, United States v.
Huskisson, No. 16-cr-00048-SEB-DKL
(Sept. 12, 2017) .......................................... App-16
Appendix C
Order Denying Defendant’s Pretrial
Motions, United States District Court for
the Southern District of Indiana, United
States v. Huskisson, No. 16-cr-00048SEB-DKL (July 25, 2017) .......................... App-21
Appendix D
Order Denying Defendant’s Motion to
Suppress, United States District Court
for the Southern District of Indiana,
United States v. Huskisson, No. 16-cr00048-SEB-DKL (July 15, 2016)............... App-30
Appendix E
Application for Search Warrant, United
States District Court for the Southern
District of Indiana, In re the Search of 612
Laclede Street, Indianapolis, Indiana,
No. 16:mj-0105 (Feb. 6, 2016) ................... App-42

ii
Appendix F
Relevant Statutory Provisions .................. App-57
21 U.S.C. § 841(a)-(b) (2010)............... App-57
First Step Act of 2018, Pub. L.
No. 15-391, § 401(c) ............................ App-69

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
________________
No. 18-1335
________________
UNITED STATES OF AMERICA,
v.

Plaintiff-Appellee,

PAUL HUSKISSON,
Defendant-Appellant.
________________
Argued: Jan. 14, 2019
Decided: June 5, 2019
________________
Before Wood, Chief Judge, and Brennan and St. Eve,
Circuit Judges.
________________
OPINION
________________
BRENNAN, Circuit Judge. Paul Huskisson
appeals his conviction for possession with intent to
distribute methamphetamine. He argues government
agents illegally obtained the drug evidence used to
convict him when they raided his house without a
warrant and saw drugs in his kitchen. The
government concedes the illegal entry, but counters
that a later-issued search warrant rendered the drug
evidence admissible. We consider whether after the

App-2
illegal entry the exclusionary rule applies to the
methamphetamine found in Huskisson’s house.
I.

Background
A. The Search and Seizure

On February 5, 2016, Drug Enforcement
Administration (DEA) agents arrested Anthony
Hardy on drug conspiracy charges and related
offenses. Seeking to cut a deal, Hardy immediately
admitted his role in the conspiracy, led DEA agents to
his drugs and guns, and rolled over on two local drug
dealers. One of those dealers was Paul Huskisson.
Huskisson was previously unknown to the
Indianapolis DEA task force, but Hardy provided
plenty of intelligence on his dealings with Huskisson,
including that:
•

•
•

Hardy purchased varying quantities of
methamphetamine from Huskisson six times
over the preceding five months, for $8,000 per
pound.
Hardy bought methamphetamine both at
Huskisson’s house and at a car lot Huskisson
owned.
Huskisson told Hardy that Huskisson’s source
expected a shipment of ten to twelve pounds of
methamphetamine the next day, February 6.
Hardy believed he could buy some or all of that
methamphetamine from Huskisson.

As further proof of Huskisson’s involvement in the
drug conspiracy, Hardy called Huskisson that day.
DEA agents, including Special Agent Michael Cline,
listened to and recorded that conversation with
Hardy’s consent. On the call, Huskisson agreed to

App-3
deliver ten to twelve pounds of methamphetamine to
Hardy. 1
The next day, Hardy and Huskisson arranged the
details of the transaction through a series of telephone
calls (again, recorded by the DEA with Hardy’s
consent). In all, Cline listened in on nine phone calls
between the two. Huskisson and Hardy agreed the
drug deal would occur at Huskisson’s home that night.
At that point, the DEA agents did not apply for a
search warrant, believing they needed to corroborate
that there was methamphetamine at Huskisson’s
residence before filing the application.
Hardy stayed with Cline until around 5:30 p.m.,
when Hardy left for Huskisson’s house. Cline tailed
Hardy’s car until it arrived at Huskisson’s house about
ten minutes later. Cline waited in his car and watched
Hardy enter the house, with an entry team on
standby. This entry team comprised DEA agents and
local law enforcement, including Indiana State Police
detective Noel Kinney.
At 6:15 p.m., Cline saw a car pull into the house’s
driveway. Two men (later identified as Jezzar
Terrazas-Zamarron and Fredi Aragon) got out of the
car with a cooler, approached the house, and entered.
Ten minutes later, Hardy walked outside and gave a

Hardy asked Huskisson, “You got any?” Huskisson replied, “I
guarantee you it will be here tomorrow… I talked to the dude.”
Hardy then asked, “We doing the ten or the twelve?” and
Huskisson replied, “It’ll be either the ten or the twelve.” Hardy
later explained to the DEA agents that the “ten or the twelve”
referred to ten or twelve pounds of methamphetamine arriving
from Huskisson’s source the next day.
1

App-4
prearranged signal to indicate
methamphetamine in the house.

he

had

seen

Once Hardy gave the signal, Cline ordered the
entry team to enter Huskisson’s house and secure the
scene. At the time, no search warrant had been issued.
The entry team entered the house and arrested
Terrazas, Aragon, and Huskisson, who refused to
consent to a search of his residence. Upon entry,
officers saw in plain sight in the kitchen an open cooler
with ten saran-wrapped packages of a substance
which field tested positive for methamphetamine. The
three men were taken into custody. Meanwhile, Cline
remained outside, pretending to arrest Hardy to
disguise his role as an informant. Cline then left with
Hardy to prepare applications for search warrants for
Huskisson’s house and his workplace.
Later that night, DEA agents filed the warrant
application for Huskisson’s house. The application
detailed Hardy’s history of drug deals with Huskisson,
as well as the many phone calls between Hardy and
Huskisson in the last twenty-four hours. The
application also included Hardy’s description of what
transpired while he was inside Huskisson’s house:
when Hardy arrived, Huskisson called his suppliers
and told Hardy they would arrive shortly. Two
minutes later, Terrazas came to the door and
explained he had five pounds of methamphetamine,
only half of what Huskisson had expected. After
speaking with Huskisson, Terrazas placed a phone
call and Aragon walked in with a cooler. Aragon took
ten saran-wrapped packages out of the cooler that
appeared to Hardy to be methamphetamine. Hardy
then went outside to signal Cline.

App-5
In addition to this information, the warrant
application contained the following two sentences that
underlie this appeal: “The law enforcement officers
observed an open cooler with ten saran wrapped
packages
that
contained
suspected
methamphetamine. The suspected methamphetamine
later field tested positive for the presence of
methamphetamine.” The magistrate judge issued a
search warrant for Huskisson’s house around
10:30 p.m. the night of Huskisson’s arrest, about four
hours after the initial entry.
B. District Court Proceedings
Huskisson was indicted for possessing with the
intent to distribute 500 grams or more of
methamphetamine, in violation of 21 U.S.C.
§ 841(a)(1). Before trial, Huskisson moved to suppress
the methamphetamine evidence, arguing it was found
after the DEA entry team entered his house without a
warrant and without any exigent circumstances, and
that DEA agents had included tainted evidence from
the illegal search in their warrant application. The
district court held a suppression hearing. Cline was
unavailable to testify, so Detective Kinney took the
stand instead.
On the topic of the warrant application, Kinney
testified inconsistently, contradicting himself and
other government evidence. At first, he testified the
task force’s plan was to apply for a warrant if
Huskisson refused consent to search, regardless of
whether they saw any evidence of drug activity within
the house:
KINNEY: Depending on the conversation
with Mr. Huskisson, if he granted consent to

App-6
search, we would continue the search of the
residence. If he didn’t, we would secure the
residence and obtain a search warrant.
But later Kinney suggested the plan was to apply for
a warrant only if the entry team found
methamphetamine in Huskisson’s home and
Huskisson refused consent to search:
DEFENSE COUNSEL: And that after
entering and securing that residence, you
were going to ask for consent to search from
Mr. Huskisson?
KINNEY: Yes, should we find the
methamphetamine, gather a consent to
search. If it was not granted, obtain a search
warrant.
DEFENSE COUNSEL: Okay. So if you didn’t
get consent, you were going to start the
process for obtaining a warrant?
KINNEY: Yes.
DEFENSE COUNSEL: So no part of the plan
was to start the process for obtaining a
warrant prior to entry into the [Huskisson]
residence?
KINNEY: That’s correct, yes.
The district court denied Huskisson’s motion to
suppress, finding Kinney’s first statement to be more
accurate and more consistent with the other evidence
presented by the government. The district court found
Cline “planned to and would have sought a search
warrant regardless of the discovery of the
methamphetamine packages,” and that the warrant
application was sufficient to establish probable cause

App-7
“even
without
those
references
[to
the
methamphetamine seized after the illegal entry].”
Order Den. Mot. to Suppress at 9-10, ECF No. 76.
The case went to a two-day jury trial, during
which three DEA agents, including Cline, testified
about their plan to apply for a search warrant. All
three testified the entry was intended only to “secure
the residence while the search warrants were getting
prepared and approved,” and that the entry team
“waited for the search warrant to be signed” after
entry. None of the other agents suggested they
intended to apply for a warrant only if
methamphetamine was found. The jury found
Huskisson guilty and the district court imposed a
twenty-year mandatory minimum sentence under 21
U.S.C. § 841(b)(1)(A)(viii). This appeal followed.
II. Discussion
Huskisson challenges the denial of his motion to
suppress on two grounds: that the warrantless entry
violated the Fourth Amendment, and that the search
warrant does not satisfy the independent source
doctrine. There is no dispute that law enforcement
entered Huskisson’s house illegally: entering a home
without a warrant is directly proscribed by the
language of the Fourth Amendment, which
guarantees “[t]he right of the people to be secure in
their … houses … against unreasonable searches and
seizures … .” Evidence from the ensuing search may
still be admissible, however, if the independent source
doctrine applies. On appeal, we review the district
court’s findings of fact for clear error and its legal
rulings de novo. United States v. Etchin, 614 F.3d 726,
733 (7th Cir. 2010). We review de novo a district

App-8
court’s determination that probable cause supported
the issuance of a search warrant. United States v.
Mullins, 803 F.3d 858, 861 (7th Cir. 2015).
As a general matter, the exclusionary rule
prohibits introduction of evidence that the police
obtained illegally. Mapp v. Ohio, 367 U.S. 643, 655
(1961). But this rule has exceptions. Relevant here is
the independent source doctrine, which holds that
illegally obtained evidence is admissible if the
government also obtains that evidence via an
independent legal source, like a warrant. See Murray
v. United States, 487 U.S. 533, 542 (1988) (allowing
the admission of evidence found in plain sight during
an illegal entry that was later obtained legally);
Segura v. United States, 468 U.S. 796, 814 (1984)
(allowing the admission of evidence found in a home
that was first entered illegally, but later entered based
on a search warrant “wholly unconnected” to the
initial, illegal entry). The independent source doctrine
recognizes that the goal of the exclusionary rule is to
put “the police in the same, not a worse, position than
they would have been in if no police error had
occurred.” Nix v. Williams, 467 U.S. 431, 443 (1984);
see also Murray, 487 U.S. at 537.
The government urges us to apply the
independent source doctrine here, arguing that the
warrant obtained after the illegal entry was an
independent legal source of the methamphetamine
evidence. Huskisson disagrees, arguing that the
warrant application referenced the illegally obtained
evidence, so it could not be a legal source. 2 Under
2 To this point, Huskisson also argues that the independent
source doctrine should not apply at all in cases of flagrant police

App-9
Murray, to decide whether the warrant is an
independent legal source, we ask two questions: first,
did the illegally obtained evidence affect the
magistrate’s decision to issue the warrant? And
second, did the illegally obtained evidence affect the
government’s decision to apply for the warrant?
Murray, 487 U.S. at 542; see also United States v.
Markling, 7 F.3d 1309, 1315-16 (7th Cir. 1993);
Etchin, 614 F.3d at 736-38.
On the first question, we have addressed the effect
of tainted evidence on warrant applications in two
cases relevant here: United States v. Markling and
United States v. Etchin. In Markling, while the
defendant stayed at a motel, its management decided
to move his belongings to another room. Police
intercepted the motel staff in transit, illegally
searched his briefcase in the motel hallway, found
drug paraphernalia inside, and referenced that
discovery in the warrant application to search his
motel room. Markling, 7 F.3d at 1311.

misconduct, such as entering a home without a warrant. See
United States v. Madrid, 152 F.3d 1034, 1041 (8th Cir. 1998)
(adding a narrow exception to the independent source doctrine
when “police officers exploit their presence in the home”). But as
we explain below, our circuit applies the independent source
doctrine to all cases where the warrant passes the Supreme
Court’s test in Murray. Our precedent therefore bars us from
applying the “flagrant misconduct standard” of Madrid, a
standard that the Eighth Circuit itself has limited to narrow
circumstances of egregious police misconduct. See, e.g., United
States v. Swope, 542 F.3d 609, 616-17 (8th Cir. 2008) (applying
independent source doctrine even though the warrant application
contained illegally obtained information).

App-10
We applied the independent source exception
from Murray in Markling. To determine whether the
magistrate judge’s decision to issue the warrant was
affected by the mention of the illegal evidence, we
asked whether, “even without the [illegal evidence],
[the] warrant application established probable cause
to search Markling’s hotel room.” 7 F.3d at 1316. We
based this approach on other circuits’ precedent and
the Supreme Court’s reasoning in Franks v. Delaware,
438 U.S. 154 (1978). Franks held that when
deliberately or recklessly false information is included
in a warrant application, “the warrant is still valid if
the other information in the application, standing
alone, is sufficient to establish probable cause.”
Markling, 7 F.3d at 1316 (citing Franks, 438 U.S. at
171-72). We concluded that the same reasoning
applied to cases where illegally obtained evidence is
included in the warrant application:
If we may uphold a warrant based on an
application including knowingly false
information if the other information in the
application establishes probable cause, it is
logical to conclude that we may uphold a
warrant based on an application including
illegally obtained information under the same
circumstances.
Markling, 7 F.3d at 1316.
In the second relevant case, Etchin, police
illegally entered the defendant’s apartment, then
applied for a search warrant and mentioned evidence
obtained during the illegal entry in the warrant
application. Etchin, 614 F.3d at 737. The tainted
evidence referenced was largely immaterial: for

App-11
example, the warrant application included the layout
of Etchin’s apartment seen during the illegal entry,
but did not mention the marijuana the officers saw in
plain view during that entry. Id. at 737-38. Despite the
intrusion upon the sanctity of the home, which “is
sacred in Fourth Amendment terms,” Segura, 468
U.S. at 810, we held the warrant was still an
independent source, because the tainted evidence
included “was not an essential factor in the probable
cause analysis.” Etchin, 614 F.3d at 737. Thus, “the
link between the initial entry and the later-discovered
evidence was ‘sufficiently attenuated to dissipate the
taint’ of the illegal search … .” Id. at 738 (quoting
Segura, 468 U.S. at 815). We did not comment in
Etchin on what the outcome would have been had the
warrant application mentioned the marijuana in plain
view.
This case presents factual elements similar to
those in Markling and Etchin. Here, the DEA entry
team violated the sanctity of Huskisson’s home by
entering without a warrant, which “is a central
concern of the Fourth Amendment.” Etchin, 614 F.3d
at 733. Then, as in Markling, the government included
the methamphetamine evidence they found in the
search warrant application, evidence that was highly
probative of probable cause.
With Murray as our direction, we apply the
Franks-style analysis adopted in Markling, because
doing otherwise would put the government in a worse
place than they would have been absent the illegal
search. See Murray, 487 U.S. at 541 (“Invoking the
exclusionary rule would put the police (and society)
not in the same position they would have occupied if

App-12
no violation occurred, but in a worse one.”). We thus
agree with several other circuits that, to determine
whether the inclusion of tainted evidence in the
warrant application affected the magistrate’s decision
to issue a search warrant, we evaluate whether the
warrant application contained sufficient evidence of
probable cause without the references to tainted
evidence, even when that tainted evidence was
recovered from an illegal entry into a home. See
Markling, 7 F.3d at 1316; see also United States v.
Dessesaure, 429 F.3d 359 (1st Cir. 2005) (affirming the
admissibility of drug evidence found during an illegal
search of a home that was mentioned in the warrant
application); United States v. Jenkins, 396 F.3d 751
(6th Cir. 2005) (affirming the admissibility of drug
evidence found during an illegal search of a hotel
room, even when it was orally mentioned to the
magistrate judge at the warrant application hearing);
United States v. Herrold, 962 F.2d 1131 (3d Cir. 1992)
(affirming the admissibility of drug evidence found
during an illegal search of defendant’s mobile home
that was included in the warrant application).
With this legal standard in mind, we return to the
facts before us to evaluate probable cause. In the
district court, Huskisson did not dispute the warrant
application submitted to the magistrate judge
contained enough information to establish probable
cause “to believe that [the entry team] would discover
evidence of a crime [inside] at the moment that they
knocked on [his] door.” Etchin, 614 F.3d at 735. 3 Even
3 Huskisson admitted probable cause at the suppression
hearing. See Supp. Tr. at 66-67, ECF No. 207 (“There was
probable cause, but I don’t believe that justified the entry … .”).

App-13
if he had, the search warrant application contained
plenty of untainted evidence of probable cause. It
detailed Hardy’s initial admissions to agent Cline
about his drug-dealing history with Huskisson,
Hardy’s nine phone calls with Huskisson, Hardy’s
signal to Cline, and Hardy’s account of what he saw in
Huskisson’s house after he arrived. Presented with
that amount and nature of evidence, the magistrate
judge would have issued the search warrant even
without
the discussion of the
field-tested
methamphetamine. Cf. Dessesaure, 429 F.3d at 36869.
That settled, we address the second question of
Murray: did the DEA’s illegal entry and field test affect
the government’s decision to apply for the warrant?
On this point, Detective Kinney gave conflicting
testimony. Initially, Kinney testified the DEA task
force planned to apply for a warrant regardless of
finding methamphetamine during the illegal entry;
the only variable was whether Huskisson would give
his consent to a search. Later, Kinney testified the
plan was to apply for a warrant only if
methamphetamine was found and Huskisson refused
to give his consent to a search. If the latter is correct,
the search warrant would fail under Murray because
the illegally obtained evidence would have affected
law enforcement’s decision to apply for a warrant and
the methamphetamine would be inadmissible.
Huskisson urges us to reconsider the district court’s
resolution of this conflicting testimony and to credit
Kinney’s latter interpretation of events.
We
disturb
a
district
court’s
factual
determinations only for clear error. United States v.

App-14
Terry, 915 F.3d 1141, 1144 (7th Cir. 2019). The
threshold is high: factual findings are “clearly
erroneous only if, after considering all the evidence,
we cannot avoid or ignore a definite and firm
conviction that a mistake has been made.” United
States v. Burnside, 588 F.3d 511, 517 (7th Cir. 2009)
(internal citations and quotation marks omitted); see
also United States v. Thurman, 889 F.3d 356, 366 (7th
Cir. 2018) (noting that we defer to district courts for
credibility determinations “because, unlike our review
of transcripts, the district court had the opportunity to
listen to testimony and observe the demeanor of
witnesses at the suppression hearing”) (internal
citations and quotation marks omitted).
Huskisson’s protests do not clear that bar. The
district court faithfully applied the standards we laid
out in Markling and Etchin to determine the
government’s motives in filing the search warrant
application. The court carefully weighed the evidence
from both sides; when faced with two inconsistent
statements from the same witness, the court credited
one based on the totality of the evidence. In so doing,
the district court concluded that an errant statement
by Detective Kinney did not outweigh the other
evidence of the government’s plan to request a search
warrant, regardless of what they found in the house.
This was not a “one-off,” ill-considered decision by the
district court. Rather, before, during, and after the
jury trial, the court closely tracked the issue with its
superior vantage point hearing and seeing the
witnesses and presiding over the presentation of all

App-15
the evidence. 4 This decision was well-reasoned and
well-supported, so we do not reverse it.
III. Conclusion
All agree: the DEA entry team entered
Huskisson’s house unlawfully. We do not condone this
illegal behavior by law enforcement; the better
practice is to obtain a warrant before entering a home.
Ordinarily, the evidence found here would be
excluded. But because the government had so much
other evidence of probable cause, and had already
planned to apply for a warrant before the illegal entry,
the evidence is admissible. Though the government
should not profit from its bad behavior, neither should
it be placed in a worse position than it would otherwise
have occupied. See Murray, 487 U.S. at 542.
Accordingly, we AFFIRM the district court.

See Order Den. Mot. to Suppress at 9-10, ECF No. 76; Order
Den. Pretrial Mot. at 6, ECF No. 165 (denying defendant’s motion
to reconsider denial of suppression motion); Trial Tr. vol. 2 at
298-99, ECF No. 211 (post-trial order again denying motion to
suppress). Additionally, as noted above, at trial three DEA agents
testified the plan was always to seek a warrant once Hardy had
confirmed there were drugs in Huskisson’s home.
4

App-16
Appendix B
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF INDIANA
________________
No. 16-cr-00048-SEB-DKL
________________
UNITED STATES OF AMERICA,
v.

Plaintiff,

PAUL HUSKISSON,
Defendant.
________________
September 12, 2017
________________
ORAL ORDER
________________
***
The motion to suppress, when it was filed
initially, resulted in briefing, and the Court's setting
an evidentiary hearing at which I heard evidence,
much of which I've heard again today and yesterday
in the course of the trial.
In fact, I can think of no new facts that the
defendant has extracted in the course of crossexamination of these witnesses that are inconsistent
with or in derogation of the facts that underlay the
Court's decision on denying the motion to suppress.
I found initially in response to that evidence that
while the Government didn't address specifically

App-17
whether there were exigent circumstances in this case
that warranted the entry and the seizure, I went on to
find basically that the motion to suppress was not well
taken.
The ruling generated a motion to reconsider by
the defendant. The Government responded again, and
the Court reviewed it again. I suppose you could say
this is the final review of that particular motion
because I have been listening to see if any of the
Court's factual findings or underpinnings for that
ruling, or the assumptions that were made in
evaluating those theories needed to be reconsidered,
and the short answer to that is they don't. The order
denying the motion to suppress will stand.
There was probable cause, based on the evidence
that's been presented during the trial, for the agents
to enter. They had the information from the
confidential informant who was inside the house who
was transmitting information to the agents, both by
audio and video, and came from the house and gave
the prearranged signal that he had found, or there was
present, I should say, methamphetamine in the house.
According to the scheme that was laid out by the
agents with the confidential informant, that was the
basis for the agents deciding to enter when they had
the unmistakable information from the confidential
informant who was inside the house, and able to attest
to that highly critical fact.
The investigative agents, buttressed by some
other law enforcement officials apparently, were in
position to make an immediate entry. There were good
reasons to make an immediate entry because the
information coming out from the confidential

App-18
informant was that there was methamphetamine
present. They had reason to anticipate that it would
be present based on the telephone communications
that have gone back and forth when people were
supposed to be delivering to the defendant at his home
methamphetamine that Mr. Hardy and Mr.
Huskisson were going to deliver or distribute to other
customers.
So, when the agents entered, they knew that the
drugs were there. They perceived immediately that
there were three people present. They handcuffed
them in order to secure the situation. They secured the
scene. They detailed Mr. Cline, or he detailed himself
because he was the agent in charge of the
investigation, to prepare an application for a search
warrant, which was presented to a magistrate judge
and issued later.
The testimony is that during that period of time,
the three suspects, including this defendant, were
restrained, kept under careful control and
surveillance at the scene, as was the stockpile of
methamphetamine that was found in the kitchen in
close proximity to the cooler that had also been part of
the information that was known to the officers because
they saw a person arrive at the scene after their
undercover—after their confidential informant was
inside the premises.
So basically all of the evidence was consistent
with the expectations of the agents, and they entered
with probable cause to secure the drugs and to detain
the defendant and place them under arrest, and wait
a reasonable period of time until the search warrant
was obtained.

App-19
After the search warrant was obtained, the
searches were undertaken. The drugs were seized and
further made safe in an evidentiary sense so that they
could be retained and available for trial as they were
introduced here. There seems to be no interruption of
the chain of custody so that the methamphetamine
that came into evidence today seems clearly tied to
that that was found at the house.
The methamphetamine was indeed in plain view.
There was enough of it that it was, you could say,
really plain view because it was there in the kitchen
where all three of the suspects were found, and it was
in packages that appeared to law enforcement
investigators to be characteristically packaged as
methamphetamine often is in ten sub-packages.
Therefore it gave the appearance of being
incriminating to investigative agents, and that gave
them further probable cause to seize the
methamphetamine that they found there, or they
thought to be methamphetamine. They were pretty
sure when they saw it what it was.
So it was seen in plain view, and that allowed the
agents to seize it as well. Mr. Holbrook, who was the
agent in charge of the search, was lawfully present
when he came upon the three suspects and the plain
view substances that later were confirmed to be
methamphetamine.
So there is no basis for the Court to recover the
motion—the order on the motion to suppress, nor is
there a basis for the Court to withdraw this matter
from the jury's consideration. The Government has
presented enough evidence that a reasonable jury
could conclude that the defendant's guilty beyond a

App-20
reasonable doubt if it chooses to do so. There is
sufficient evidence to support such a verdict.
So that completes the Court's ruling at this
juncture. Can you tell me now, Mr. Edgar, what to
expect?
***

App-21
Appendix C
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF INDIANA
________________
No. 16-cr-00048-SEB-DKL
________________
UNITED STATES OF AMERICA,
v.

Plaintiff,

PAUL HUSKISSON,
Defendant.
________________
Filed: July 25, 2017
________________
ORDER
________________
Before the Court is a series of pretrial motions
filed by the Defendant appearing pro se. After careful
review, the Court issues the following rulings:
1.

Defendant’s Motion for Evidentiary Hearing
Pursuant to Franks v. Delaware, 438 U.S. 154
(1978). [Docket No. 124]:

The Motion is DENIED. None of the grounds cited
by Defendant in his motion constitutes a material
misstatement or omission justifying a Franks hearing.
He has failed to make the required “substantial
preliminary showing that a false statement” by
Affiant was “knowingly or intentionally, or with
reckless disregard for the truth” made and included in

App-22
the warrant affidavit. Franks, 438 U.S. at 155-56; see
also, United States v. Currie, 739 F.3d 960, 963 (7th
Cir. 2014). Defendant has failed to establish that any
of the alleged errors or omissions in the affidavit
affected (or would have affected) the magistrate
judge’s finding that probable cause existed to support
the search warrants at issue in this case.
The “omissions” cited by Defendant reference
information as to the informant’s background and
status as a first-time informant. Defendant objects to
the omission of the informant’s prior arrest on a drug
conspiracy charge, and the potential mandatory
minimum sentence the informant might have faced
had he been convicted of the offense for which he was
arrested. This information, even assuming it is all
truthful and accurate, is not material when, as here,
other information in the affidavit sufficiently
corroborates the truthfulness of the informant’s
statements. United States v. Taylor, 471 F.3d 832, 840
(7th Cir. 2006). The affidavit (¶ 6) clearly states that
the informant whose assistance was relied upon by
law enforcement in this case had cooperated only after
his
arrest
for
conspiracy
to
distribute
methamphetamine and related offenses. Ongoing
surveillance activities and monitoring by law
enforcement officers occurring simultaneously with
the confidential informant’s actions and statements
throughout the investigation corroborate the
informant’s statements as referenced in the Affidavit.
This information sufficed to alert the magistrate judge
to the informant’s reason(s) and motives for
cooperating with federal agents.

App-23
Similarly, information concerning the informant’s
possible or likely motive for providing information was
not material in light of the other information set out
in the affidavit which sufficiently corroborated the
informant’s statement(s). Id. at 840.
Defendant’s challenges to statements allegedly
made by and about himself as well as the informant
relating to previous drug dealings, though
controverted by Defendant, have not been supported
by an offer of proof by sworn affidavits or other reliable
witness statements. Thus, there is no basis on which
the Court could rule that statements by an agent
which have been disputed by Defendant reflect a
deliberate falsehood or constitute reckless statements
made by him in disregard of the truth in the Affidavit.
To
the
extent
there
are
factual
inconsistencies/disparities between the assertions in
the affidavit and subsequently proffered government
evidence, these discrepancies, at most, involve trivial
matters. They are minor, insignificant differences that
do not rise to the level of undermining the reliability
of the affidavit. They fall well short of establishing
intentional or reckless falsehoods by the agent. It is
likely that any factual disparities are the result of the
circumstances in which the affidavit was prepared by
the agent, who was at the time overseeing a fast-paced
investigation in which the acquisition of a search
warrant was necessary on an accelerated basis to
ensure that evidence was not lost due to any delay on
the part of law enforcement. Haste of this sort, when
it occurs, can not only explain minor factual
discrepancies, it undermines arguments accusing the

App-24
agent of intentional or reckless falsehoods in drafting
his affidavit.
As noted, Defendant has failed to provide the
necessary preliminary showing that any of the factual
statements made in the search warrant affidavit or
any of the alleged omissions from the affidavit
amounted to either a deliberate falsehood or reckless
indifference to the truth. Further, defendant has
failed to establish that any of the alleged errors or
omission had the potential to affect the magistrate
judge’s determination as to probable cause in support
of the requested search warrants that ultimately were
issued in this case. Defendant, therefore, is neither
entitled to a Franks hearing nor to any other relief
(i.e., suppression of evidence) based on the arguments
advanced in this motion. Accordingly, it is DENIED.
2.

Defendant’s Motion for Evidentiary Hearing
on Defective/Invalid Search Warrant,
pursuant to Federal Rule of Criminal
Procedure 41(d)(2)(C). [Docket No. 140]:

This Motion is DENIED. Defendant seeks the
suppression of evidence that was obtained from the
execution of federal search warrants at Defendant’s
residence and business on February 6, 2016. The relief
sought is based on three alleged violations of Rule
41—§§ (d)(2)(C), (f)(1)(A), and (b)(6)(B) and (C).
(Section (d)(2)(C) is not the Rule cited by Defendant as
the basis for this motion, but, after examining his
contentions, we conclude that this Rule is the likely
basis for his motion. The Rule he cited (Rule
41(2)(A)(c)) does not actually exist.)
Rule 41 (d)(2)(C) requires that testimony received
by the Court that has been proffered as support for a

App-25
search warrant in the application be recorded by a
court reporter or recording device and that the judge
file a transcript or recording with the clerk of court.
This provision applies when the warrant has been
requested in the presence of a judge. The government
indicates here that the search warrant application and
attached affidavit were submitted to the magistrate
judge and no witness testimony was elicited or
provided relating to the issuance of the warrant. Thus,
this requirement of a recording and the filing of a
transcript does not apply to Defendant’s case.
Rule 41 (f)(1)(A) requires that the officer
executing the warrant must enter on it the exact date
and time it was executed. The date of the execution of
the warrant was properly entered by the officer, to wit,
February 6, 2016, the same date on which the warrant
was issued by the magistrate judge. The exact time of
the execution of the warrant, however, was omitted
from the Return. This is, indeed, a violation of this
rule, but it is a technical, minor violation about which
well-established case law affords no relief. The
requirement that the time of the execution of the
warrant be placed on the warrant upon its return is a
ministerial act, the violation of which neither voids the
search warrant nor provides grounds for suppressing
the evidence seized during the execution of the search
warrant. United States v. Kelly, 14 F.3d 1169, 1173
(7th Cir. 1994).
Rule 41 (d)(2)(C) applies to warrants sought by
telephone or other electronic means. The warrant
request at issue here was not submitted in this
fashion. Thus, this rule affords to basis for the relief
which Defendant seeks.

App-26
The grounds for relief cited by Defendant in this
motion seeking a hearing based on a defective/invalid
search warrant are without merit. No hearing is
therefore necessary or appropriate. The Motion is
accordingly DENIED.
3.

Defendant’s Motion for Reconsideration.
[Docket No. 135]:

This Motion is DENIED. Defendant’s motion for
reconsideration of our order denying his motion to
suppress [Docket No. 76] seeks only to relitigate two
factual conclusions reached in that order: (1) that the
illegally obtained information did not affect the
judicial officer’s decision to issue the warrant, and
(2) that the officers’ decision to seek a warrant was not
prompted by anything discovered during the illegal
entry.
Defendant has offered no newly discovered
evidence or governing legal authority in his motion to
reconsider. Instead, he advances only a recitation of
our prior order along with brief summaries of the cases
on which we relied in reaching our conclusions. While
the Federal Rules of Criminal Procedure do not
provide for motions to reconsider, courts generally
treat them the same as motions to alter or amend
judgment would be treated in the civil context under
Fed. R. Civ. P. 59(e), which motions are granted only
“to correct manifest errors of law or to present newly
discovered evidence.” See e.g., Indiana v. Helman,
2008 WL 2557246, at *1-2 (N.D. Ind. June 23, 2008)
(quoting Phelps v. Hamilton, 122 F.3d 1309, 1324
(10th Cir. 1997).
Because Defendants’ motion to reconsider merely
rehashes the arguments presented in his original

App-27
motion to suppress, it is hereby DENIED. In addition,
as Defendant’s motion at Docket No. 157 is, in essence,
simply a request for a rehearing on the motion to
suppress, it is also DENIED.
4.

Motion for Disclosure of Jencks Act Material
and Brady/Giglio Material, pursuant to
Federal Rule of Criminal Procedure 16.
[Docket No. 139]:

This Motion is DENIED as moot. The
Government reports that it has made the required
disclosures to Defendant’s standby counsel, following
Defendant’s refusal to accept delivery of the material
on April 7, 2017. The Government understands that it
is under a continuing obligation to provide discovery
information as well as any exculpatory evidence that
may come into its possession or knowledge following
these initial disclosures. Jencks Act statements are
disclosable following the testimony at trial of the
witness on direct examination. 18 U.S.C. § 3500.
5.

Motion for Request of Motion Deadline
Order, pursuant to Federal Rule of Criminal
Procedure 12(c). [Docket No. 141]:

This motion is confusing as submitted.
Defendant’s verbatim request is that the Government
“produce any formal filing of statements and or
documents and or order made by the courts on a
document 30 day deadline under Rule 12(c)” and
“allow pretrial motions.”
The Government’s response cites the March 10,
2016 Scheduling Order [Docket No. 51] at page 10.
Section VIII of that Order addresses Pretrial Motions
and Evidentiary Hearings and applies both to the
Defendant and the Government. The times for filing

App-28
such motions are specified there. Thus, Rule 12(c) has
been fully complied with by the Scheduling Order. No
other ruling is required on this matter at least at this
time.
6.

Motion to Challenge 21 U.S.C. § 851(a)(1).
[Docket No. 152]:

This Motion is DENIED. This motion challenges
the Government’s filing of the § 851 Information
[Docket No. 130], which has the effect of notifying the
Defendant (and the Court) of Defendant’s prior drugrelated state felony conviction (entered on June 5,
2009) and the Government’s intention to seek an
enhanced sentence, if Defendant is convicted on the
pending charge(s). The statute expressly requires the
Government to file this notice and serve a copy on the
Defendant before trial or before entry of a plea of
guilty by Defendant. The Government’s filing of this
Information
complies
with
these
statutory
requirements.
To the extent that Defendant believes that the
Government must obtain a superseding indictment of
some sort before it can file a § 851 Information, he is
mistaken. The § 851 Information is a separate
document that is filed in conjunction with the pending
Superseding Indictment against Defendant, which is
the means by which the Government formally states
its intention to seek an enhanced penalty following
Defendant’s
conviction,
should
such
occur.
Defendant’s motion is therefore DENIED.
7.

Motion for Hearing Dates on Defendant’s
Pretrial Motions. [Document 155]:

This motion is DENIED. The Court has now ruled
on Defendant’s pretrial motions and finds them

App-29
unavailing as a matter of law. No purpose would be
served by scheduling a hearing to further consider
these matters.
IT IS SO ORDERED.
Date: 7/25/2017

[handwritten: signature]
SARAH EVANS BARKER, JUDGE
United States District Court
Southern District of Indiana

App-30
Appendix D
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF INDIANA
________________
No. 16-cv-00048-SEB-DKL
________________
UNITED STATES OF AMERICA,
v.

Plaintiff,

PAUL HUSKISSON,
Defendant.
________________
Filed: July 15, 2016
________________
ORDER
________________
This matter comes before the Court on Defendant
Paul Huskisson’s Motion to Suppress Evidence [Dkt.
No. 65], filed on May 6, 2016, in which Defendant
alleges violations of his rights under the Fourth
Amendment of the United States Constitution. The
Motion has been fully briefed by the parties and an
evidentiary hearing was conducted on June 7, 2016, at
which testimony was received from one witness on
behalf of the government; oral argument was also
heard. For the following reasons, we DENY
Defendant’s Motion to Suppress.

App-31
Factual and Procedural Background
On February 5, 2016, the DEA arrested an
individual on conspiracy drug charges and related
offenses. [Dkt. 67-1 (Aff. in Supp. of Search Warrant
Appl.) at 3.] The individual admitted to his/her
participation in the drug conspiracy and subsequently
agreed to assist the Government as a confidential
informant (“CI”). 1 [Id.] The CI identified Paul
Huskisson (Defendant) as a methamphetamine
source, and admitted that he/she had purchased
methamphetamine from Defendant approximately six
times during the preceding four to five months. [Id.]
The CI told the DEA that the transactions with
Defendant either occurred at Defendant’s residence or
place of business, and that he/she was expecting to
purchase approximately ten or twelve pounds of
methamphetamine from Defendant on February 6,
2016. [Id.]
On February 5, 2016, at approximately 12:19
p.m., the CI placed a consensually recorded telephone
call to Defendant. [Id. at 4.] During the ensuing
conversation, the CI agreed to purchase ten or twelve
pounds of methamphetamine the next day. [Id.] On
February 6, 2016, the CI and Defendant agreed over
telephone to meet at Defendant’s residence at 612
Laclede Street, Indianapolis, Indiana, at 5:00 p.m. to
conduct the purchase. [Id.]
At approximately 5:33 p.m., DEA Special Agent
Michael Cline (“Cline”) followed the CI’s vehicle to
Defendant’s residence. [Id.] Cline observed the CI
1 On the record before us, we identify the informant only as
“CI.”

App-32
enter the residence at approximately 5:43 p.m. [Id. at
5.] At approximately 6:15 p.m., Cline observed a white
sedan park in Defendant’s driveway. [Id.] A male
exited the vehicle and entered the residence, and then,
about three minutes later, a second man exited the
vehicle, carrying a cooler, and entered the residence.
[Id.] These two men whose identities were unknown to
Cline at the time were later identified as Fredi Abel
Aragon-Corrales and Jazzar Terrazas-Zamarron. [Id.]
At approximately 6:25 p.m., the CI exited the
residence and gave a prearranged signal to awaiting
law
enforcement
officers
that
there
was
methamphetamine inside the residence. [Id.] A DEA
entry team then “entered the residence to secure the
residence,” although the officers had not yet obtained
a search warrant. [Id.] Defendant, Aragon-Corrales,
and Terraszas-Zamarron were all taken into custody.
[Id.] The DEA asked Defendant for his permission to
search the residence, but he denied their request. The
law enforcement officers observed in the kitchen area
in plain view an open cooler with ten saran wrapped
packages and subsequently field-tested the packages
for methamphetamine, which tested positive. [Id.]
After the defendants were taken into custody, the
CI informed Cline of the events that had occurred
inside the residence during the transaction. [Id.] The
CI confirmed that Aragon-Corrales and TerraszasZamarron were Defendant’s suppliers, and explained
how Aragon-Corrales dismantled the cooler to remove
the wrapped packages hidden inside. [Id. at 6.] Cline
and Special Agent Noel Kinney (“Kinney”) submitted
affidavits in support of a search warrant application
shortly thereafter. In his affidavit, Cline referenced

App-33
the field-tested methamphetamine packages as well
as the conversation he had with the CI after the agents
entered the residence. [Id. at 5.] The search warrant
was thereafter sought and obtained from the
Magistrate Judge.
On May 6, 2016, Defendant filed this Motion to
Suppress Evidence alleging that his Fourth
Amendment rights had been violated. [Dkt. No. 65.]
Analysis
The Fourth Amendment protects against
unreasonable searches and seizures, and “it is a
cardinal principle” that searches and seizures
conducted without prior approval by a judge or
magistrate are “per se unreasonable under the Fourth
Amendment—subject only to a few specifically
established and well-delineated exceptions.” Mincey v.
Arizona, 437 U.S. 385, 390 (1978) (citations omitted).
One of those exceptions to the warrant requirement is
the existence of exigent circumstances. In such a case,
“warrantless entry by criminal law enforcement
officials may be legal when there is compelling need
for official action and no time to secure a warrant.”
Michigan v. Tyler, 436 U.S. 499, 509 (1978). Here,
Defendant argues that no exigent circumstances
existed to justify the DEA agents’ warrantless entry of
his residence and therefore that all evidence obtained
as a result of the warrantless entry of 612 Laclede
Street and the warrantless arrests and seizures made
after the illegal entry must be suppressed.
The Government does not address whether in this
case exigent circumstances existed at the time of the
agents’ warrantless entry into Defendant’s residence,
apparently conceding that no such exigency existed.

App-34
We agree that there is no evidence before us that
would establish the emergency circumstances
required to justify the warrantless entry into
Defendant’s home under the exigent circumstances
exception to the warrant requirement. Accordingly, for
purposes of Defendant’s motion to suppress, we
assume that the agents’ warrantless entry in this case
was unlawful. However, “[t]he fact that police behaved
illegally does not mean that the remedy of excluding
evidence is necessarily appropriate.” United States v.
Etchin, 614 F.3d 726, 734 (7th Cir. 2010). Upon careful
review of the parties’ submissions, the testimony and
oral argument presented at the suppression hearing,
and the relevant case law, we find that, despite the
illegal entry, all evidence discovered during the
warrantless seizure as well as the search performed
after the warrant was secured is admissible.
In United States v. Etchin, 614 F.3d 726 (7th Cir.
2010), the Seventh Circuit examined the Supreme
Court’s holding in Segura v. United States, 468 U.S.
796 (1984), where the Court found that even if an
initial warrantless entry into a residence is unlawful,
“officers who enter and seize a home to preserve the
status quo while waiting for a search warrant do not
commit an independently sanctionable violation of the
Fourth Amendment as long as they had probable
cause at the moment of entry and the seizure is not
unreasonably long.” Etchin, 614 F.3d at 734. In
reaching this conclusion, the Segura Court reasoned
that “the home is sacred in Fourth Amendment terms
not primarily because of the occupants’ possessory
interests in the premises, but because of their privacy
interests in the activities that take place within.”
Segura, 468 U.S. at 810. The Court noted that society’s

App-35
interest in discovering evidence, and protecting it from
removal or destruction, “can supersede, at least for a
limited period, a person’s possessory interest in
property ....” Id. at 808 (emphasis added). As a result,
“[s]ecuring a dwelling, on the basis of probable cause,
to prevent the destruction or removal of evidence
while a search warrant is being sought is not itself an
unreasonable seizure of either the dwelling or its
contents.” Id. at 810 (finding that agents’ decision to
illegally enter apartment, take suspects into custody,
and ultimately occupy the premises for nineteen hours
while awaiting a search warrant was not an
unreasonable seizure, since agents had probable cause
to suspect the property was associated with criminal
activity and that evidence therein was capable of being
destroyed).
In this case, there is no issue regarding the
reasonableness of the duration of the seizure of the
premises as the seizure here—which lasted
approximately four hours—was much shorter than the
one upheld in Segura. Accordingly, in determining
whether the seizure in the case at bar violated the
Fourth Amendment, we address only whether
probable cause to support a warrant to search
Defendant’s residence existed at the moment DEA
agents entered to secure the premises. See Etchin, 614
F.3d at 734-35 (reiterating that the probable cause
inquiry in Segura focused on “whether there was
probable cause to support a warrant to search the
premises; it was not concerned with the question
whether there was probable cause to support a finding
of exigent circumstances”).

App-36
There is no dispute here that when the CI exited
Defendant’s residence and gave the prearranged
signal to the DEA agents that methamphetamine was
inside, probable cause to support a search warrant
existed. The facts and circumstances known to the
agents at that time, including the information gleaned
from the CI’s prior statements, the recorded telephone
conversations between the CI and Defendant, and the
events witnessed by the agents at Defendant’s
residence on February 6 up until the point of entry
that corroborated the CI’s statements and recorded
telephone calls, clearly would have led a reasonable
person to believe that criminal activity was being
conducted within the residence. 2 See id. at 735
(“Probable cause to search a place exists when, based
on all of the circumstances, a reasonably prudent
person would be persuaded that evidence of a crime
will be found there.”). Accordingly, the seizure of
Defendant’s residence was not violative of the Fourth
Amendment.
Having found the seizure at issue here to have
been compliant with the Fourth Amendment
requirements, we turn next to the question of whether
the evidence discovered in plain sight during the
agents’ protective sweep of the residence during the
seizure as well as the evidence discovered when the
agents subsequently executed the search warrant
must be suppressed “as illegal ‘fruit’ of their initial
unlawful entry.” Etchin, 614 F.3d at 736. The
exclusionary rule, which “prohibits introduction into
2 During the evidentiary hearing, defense counsel conceded
that the DEA agents had probable cause to obtain a search
warrant after the CI gave the prearranged signal.

App-37
evidence of tangible materials seized during an
unlawful search,” applies not only to evidence
obtained as a direct result of an unlawful search, but
also to evidence “otherwise acquired as an indirect
result of the unlawful search ....” Murray v. United
States, 487 U.S. 533, 536-37 (1988). But evidence is
not to be excluded “if police had an ‘independent
source’ for discovery of the evidence ....” Segura, 468
U.S. at 805.
“[W]hen a later-arriving warrant is based on
information ‘wholly unconnected’ to the illegal entry,
evidence discovered during the search is admissible
because its discovery is based on an independent
source.” Etchin, 614 F.3d at 736 (citing Segura, 468
U.S. at 813-16). Because the exclusionary rule is often
“at odds with society’s interest in prosecuting and
punishing crime,” United States v. Markling, 7 F.3d
1309, 1315 (7th Cir. 1993), “the interest of society in
deterring unlawful police conduct and the public
interest in having juries receive all probative evidence
of a crime are properly balanced by putting the police
in the same, not a worse, position that they would
have been in if no police error or misconduct had
occurred.” Nix v. Williams, 467 U.S. 431, 443 (1984).
“So long as a later, lawful seizure is genuinely
independent of an earlier, tainted one … there is no
reason why the independent source doctrine should
not apply.” Murray, 487 U.S. at 542 (finding that,
despite prior warrantless entry into warehouse,
wherein officers observed marijuana, the police’s
second, legal entry was “genuinely independent” of the
illegal entry).

App-38
In deciding whether a later, lawful search or
seizure was an independent source of the evidence
found, a court must ask, first, “whether any illegally
obtained information affected the judicial officer’s
decision to issue a warrant,” and, second, “whether the
police officers’ decision to seek a warrant was
prompted by anything that was discovered during the
illegal entry.” Etchin, 614 F.3d at 737. If the
magistrate judge would have issued the warrant
regardless of the illegal search or seizure and law
enforcement would have pursued a warrant
regardless of what they searched or seized illegally,
the discovered evidence is admissible. See id. at 73738.
Determining whether the warrant would have
issued here even in the absence of information
gathered from the entry into Defendant’s residence is
complicated by the fact that the affidavit filed in
support of the search warrant improperly contained
references both to the methamphetamine seized
following the illegal entry as well as to a conversation
Cline held with the CI after securing the residence
during which the CI recounted the events that had
transpired in the residence before the DEA’s entry.
However, even in such cases as this, where law
enforcement officers reference information garnered
from the illegal entry, the ultimate question remains
the same, to wit, “whether the illegally obtained
evidence affected the magistrate’s decision to issue the
search warrant.” Markling, 7 F.3d at 1315-1316.
As discussed above, Defendant concedes and we
agree that probable cause to search the residence
indisputably existed at the moment the CI exited

App-39
Defendant’s residence and gave the prearranged
signal that methamphetamine was present inside.
Accordingly, we find that the information that was
obtained in the illegal entry and referenced in the
probable cause affidavit was not necessary to the
magistrate judge’s determination that probable cause
supported the warrant. In other words, the magistrate
judge would ultimately have issued the search
warrant even without reference to the evidence seized
and information obtained following the illegal entry
because, even without those references, the warrant
application was still sufficient to establish probable
cause. See id. at 1316-17.
Finally, we address whether the DEA agents’
decision to seek a search warrant for Defendant’s
residence “was prompted by anything that was
discovered during the illegal entry.” Etchin, 614 F.3d
at 737. On the facts before us, we conclude that it was
not. At the evidentiary hearing, Kinney testified that
he believed he needed corroboration of the information
that had been gleaned from the CI’s prior statements
and his conversations with Defendant regarding the
planned buy on February 6 before seeking a search
warrant and that once the CI gave the prearranged
signal that there was methamphetamine in the
residence, he concluded there was probable cause for
a search warrant at that point. Kinney further
testified that before entering Defendant’s residence on
February 6, the agents had planned to seek a search
warrant in the event that Defendant would not give
consent to search. Given this testimony and the fact
that all the events that transpired on February 6
leading up to the agents’ entry into Defendant’s
residence corroborated the other information already

App-40
known by the agents regarding the CI’s prior dealings
with Defendant and the plan for the CI to purchase a
significant amount of methamphetamine from
Defendant on that date at that location, there is no
indication that the discovery of the methamphetamine
packets seized by the agents following the illegal entry
was necessary to confirm the agents’ belief that
criminal activity was then occurring such that that
discovery prompted the decision to seek a search
warrant. To the contrary, the evidence establishes
that the agents planned to and would have sought a
search warrant regardless of the discovery of the
methamphetamine packages. The fact that the agents
attempted to get Defendant’s consent before securing
the search warrant is insufficient to establish
otherwise.
For these reasons, we hold that the evidence
discovered during the search of Defendant’s residence
following issuance of the warrant is admissible under
the independent source doctrine. As was ruled in
Etchin, it follows from this conclusion that the
methamphetamine seized following the illegal entry is
also admissible. 3 614 F.3d at 738 (citing Murray, 487
Defendant argues that while the Court in Segura held that
the evidence discovered in that case as a result of the later lawful
search was admissible, it held that the evidence found in plain
sight during the seizure directly following the illegal entry had to
be suppressed as fruit of the illegal entry, and therefore, that the
methamphetamine seized here must be suppressed even if the
additional evidence discovered during the lawful search is
admissible. However, the Court in Segura made clear that “the
only issue” before it was “whether drugs and the other items not
observed during the initial entry and first discovered by the
agents the day after the entry, under an admittedly valid search
warrant, should have been suppressed.” 468 U.S. at 796
3

App-41
U.S. at 537-41; United States v. Salgado, 807 F.2d 603,
608 (7th Cir. 1986)). Accordingly, Defendant’s Motion
to Suppress is DENIED.
IT IS SO ORDERED.
Date: 7/15/2016

[handwritten: signature]
SARAH EVANS BARKER, JUDGE
United States District Court
Southern District of Indiana

(emphasis added). That is not the situation before us in this
matter.

App-42
Appendix E
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF INDIANA
________________
No. 16-mj-0105
________________
IN THE MATTER OF THE SEARCH OF 612 LACLEDE
STREET, INDIANAPOLIS, INDIANA
________________
Feb. 6, 2016
________________
APPLICATION FOR A SEARCH WARRANT
________________
I, a federal law enforcement officer or an attorney
for the government, request a search warrant and
state under penalty of perjury that I have reason to
believe that on the following person or property
(identify the person or describe the property to be
searched and give its location): 612 Laclede Street,
Indianapolis, Indiana, a photograph of which is
marked as Exhibit “A,” attached, and incorporated by
reference
located in the [handwritten: Southern] District of
[handwritten: Indiana], there is now concealed
(identify the person or describe the property to be
seized): See Exhibit “B,” which is attached and
incorporated by reference
The basis for the search under Fed. R. Crim. P.
41(c) is (check one or more):


evidence of a crime;

App-43


contraband, fruits of crime. or other items
illegally possessed;



property designed for use, intended for use, or
used in committing a crime;



a person to be arrested or a person who is
unlawfully restrained.

The search is related to a violation of:
Code Sections

Offense Description

21 U.S.C. §§ 841(a)(1) Conspiracy to distribute
controlled substances and
and 846
possession of controlled
substances with intent to
distribute
The application is based on these facts:
See attached affidavit


Continued on the attached sheet.



Delayed notice of __ days (give exact ending date
if more than 30 days: ____) is required under 18
U.S.C. § 3103a, the basis of which is set forth on
the attached sheet.
[handwritten: signature]
Applicant’s signature
[handwritten: name & title]
Printed name and title

Sworn to before me and signed in my presence.
Date: [handwritten:
2/6/2016]

[handwritten: signature]
Judge’s signature

City and state:
[handwritten:
Indianapolis, IN]

[handwritten: Debra M.
Lynch USMJ]
Printed name and title

App-44
AFFIDAVIT IN SUPPORT OF SEARCH
WARRANT APPLICATION
I, Michael D. Cline, a Special Agent with the Drug
Enforcement Administration ("DEA"), being duly
sworn, state as follows:
1. I am an "investigative or law enforcement
officer" within the meaning of Section 2510(7) of Title
18, United States Code, that is, an officer of the United
States who is empowered by law to conduct
investigations of, and to make arrests for, offenses
enumerated in Section 2516 of Title 18, United States
Code.
2. I have been employed by the Drug
Enforcement Administration (DEA) since May, 1996.
I am currently assigned to the DEA Indianapolis
District Office, Indianapolis, Indiana, and have been
so assigned since 2001. Prior to my assignment at the
Indianapolis District Office, I was assigned with the
DEA New York Field Division Office from 1996 to
2001. In connection with my official DEA duties, I
investigate criminal violations of state and federal
narcotics laws, including, but not limited to, Title 21,
United States Code, Sections 841, 843, 846 and 848. I
have received special training in the enforcement of
laws concerning controlled substances as found in
Title 21 of the United States Code. During the course
of those investigations, I have participated in over a
hundred searches pursuant to federal and state search
warrants that have resulted in the seizure of
controlled substances or the records, books, and
proceeds derived from this illegal activity.
in

3. I have personally conducted and/or assisted
numerous criminal investigations involving

App-45
controlled substances and money laundering. I have
testified in State judicial proceedings and
prosecutions for violations of controlled substance
laws. I have participated in the debriefing and
interviews of defendants, witnesses, informants
(confidential sources), and others who have knowledge
both of the distribution and transportation of
controlled substances and also of the laundering and
concealing of proceeds from drug trafficking. I have
reviewed numerous investigative reports and
interviews related to the possession, manufacture,
and delivery of, including possession with intent to
deliver, controlled substances. I am familiar with the
ways in which drug traffickers conduct their business,
including, but not limited to, their methods of
importing and distributing controlled substances and
their use of telephones and code language to conduct
their transactions. I am familiar with and have
participated in all of the normal methods of
investigation, including, but not limited to visual
surveillance, the general questioning of witnesses, the
use of informants, the use of pen registers, and
undercover operations. I have had conversations with
drug traffickers concerning their methods of operation
in the course of investigative interviews and have
participated in the execution of numerous search
warrants relating to illegal drug trafficking. My
experience and training enables me to recognize
methods and means used for the distribution of
controlled substances and for the organization and
operation of drug conspiracies, including the means
employed to avoid detection.
4. The information contained in this Affidavit is
based upon my personal participation in the

App-46
investigation described herein, upon information
provided by other law enforcement officers involved in
this investigation, and upon information from other
individuals who have knowledge of the events and
circumstances as described herein.
5. I make this affidavit in support of a search
warrant for the following locations:
a. 612 Laclede Street, Indianapolis, Indiana, the
residence of Paul Huskisson and
b. No Limit Motors, located at 5344 West
Washington Street in Indianapolis, a business
premises maintained by Paul Huskisson.
6. On February 5, 2016, DEA arrested a
cooperating individual (“Individual #1”) for conspiracy
to distribute methamphetamine and related offenses.
Individual #1 admitted to his/her participation in the
charged conspiracy and let DEA agents to various
locations where Individual #1 had stored
methamphetamine and firearms. Individual #1 turned
the methamphetamine and firearms over to DEA.
7. This affiant interviewed Individual #1 after
his/her arrest. Individual #1 identified Paul
Huskisson as one of his/her methamphetamine
sources. Individual #1 indicated that he/she had
obtained methamphetamine from Huskisson for the
past four to five months. Individual #1 stated that
he/she obtained methamphetamine from Huskisson
approximately six times during these four to five
months. Individual #1 stated that he/she obtained
approximately two pounds of methamphetamine for
$8,000 per pound during the first four transactions.
During the past two transactions, Individual #1
obtained larger amounts of methamphetamine for

App-47
$8,000 per pound. Individual #1 stated that he/she
received the methamphetamine from Huskisson at
either Huskisson's car lot, No Limit Motors, located at
5344 West Washington Street in Indianapolis, or at
Huskisson's residence, which was located near the car
lot. Individual #1 stated that he/she had last obtained
methamphetamine from Husldsson at No Limit
Motors approximately two weeks ago. During that
transaction, Individual #1 observed a yellow envelope
containing money that was approximately eight
inches thick. The money did not come from Individual
#1.
8. Individual #1 told Special Agent Cline that
Huskisson's methamphetamine source expected to
receive an incoming shipment of approximately ten or
twelve pounds of methamphetamine on February 6,
2016 and that Individual #1 could obtain some or all
of this methamphetamine from Huskisson.
9. On February 5, 2016, at approximately 12:19
p.m., Individual #1 placed a consensually recorded
telephone call to telephone number (317) 938-5077
(“Target Phone”). During the ensuing conversation,
Individual #1 asked Huskisson, “You got any?”
Huskisson replied, “I guarantee you it will be here
tomorrow .... I talked to the dude.” Individual #1
asked, “We doing the ten or the twelve?” Huskisson
replied, “It'll be either the ten or the twelve.”
Individual #1 stated that this conversation involves
him/her asking Huskisson if Huskisson had
methamphetamine available for distribution (“You got
any?”). Huskisson replied that he had spoken with his
methamphetamine source (“I talked to the dude”) and
that the methamphetamine would arrive on February

App-48
6 (“I guarantee you it will be here tomorrow”).
Individual #1 asked if he/she could receive ten or
twelve pounds of methamphetamine (“We doing the
ten or the twelve?”). Huskisson replied that he would
receive
either
ten
or
twelve
pounds
of
methamphetamine from his source (“It'll be either the
ten or the twelve”).
10. On February 6, 2016, from approximately
2:22 p.m. to 4:46 p.m., Individual #1 engaged in a
series of consensually recorded telephone calls with
Paul Huskisson. During these telephone calls,
Individual
#1
and
Huskisson
set
up
a
methamphetamine transaction that would occur at
Huskisson's residence, located at 612 Laclede Street,
Indianapolis. Individual #1 and Huskisson scheduled
the methamphetamine transaction for approximately
5:00 p.m.
11. On February 6, 2016, at approximately 3:00
p.m., this affiant searched Individual #1’s person.
Individual #1 remained in this affiant’s presence until
approximately 5:33 p.m. This affiant searched
Individual #1’s vehicle at approximately 4:55 p.m.
This affiant did not find any controlled substances or
contraband during the search of Individual #1’s person
or vehicle.
12. On February 6, 2015, at approximately 5:33
p.m., this affiant followed Individual #1 as Individual
#1 drove from the meet location to the residence
located at 612 Laclede Street. This affiant followed
Individual #1 for the entire duration of the drive to 612
Laclede Street. Individual #1 did not make any stops
or detours or meet with any other individuals during
this drive.

App-49
13. On February 6, 2015, at approximately 5:43
p.m., this affiant observed Individual #1 park his/her
vehicle outside of the residence located at 612 Laclede
Street. This affiant observed Individual #1 exit his/her
vehicle, approach the residence, and enter through the
front door. Individual #1 remained inside of the
residence until approximately 6:25 p.m.
14. On February 6, 2015, at approximately 6:15
p.m., this affiant observed a white 2014 Mazda sedan
park in the driveway of the residence located at 612
Laclede Street. This affiant observed a male exit the
vehicle, approach the residence, and enter the front
door of the residence. Approximately three minutes
later, this affiant observed another male exit the
vehicle carrying a cooler, approach the residence, and
enter the front door of the residence.
15. On February 6, 2015, at approximately 6:25
p.m., this affiant observed Individual #1 exit the
residence and give a prearranged signal indicating
that he/she had observed methamphetamine inside of
the residence. At that time, the DEA entry team
entered the residence to secure the residence. DEA
agents and law enforcement officers took Paul
Huskisson, Fredi Aragon, and and Jezzar TerrazasZamarron into custody. The law enforcement officers
observed an open cooler with ten saran wrapped
packages
that
contained
suspected
methamphetamine. The suspected methamphetamine
later field tested positive for the presence of
methamphetamine.
16. Shortly after the transaction, this affiant met
with Individual #1. Individual #1 stated that he/she
met with Paul Huskisson after entering the residence

App-50
located at 612 Laclede Street. During the next half
hour, Huskisson placed two calls to individuals whom
Huskisson identified as his methamphetamine
suppliers. After these telephone conversations,
Huskisson
told
Individual
#1
that
his
methamphetamine suppliers would arrive shortly
with the methamphetamine. After approximately two
minutes, a Hispanic male (later identified as Jezzar
Terrazas-Zamarron) entered the front door of the
residence. Terrazas told Individual #1 that he only
had five pounds of methamphetamine. Huskisson
asked Terrazas why he only brought five pounds of
methamphetamine. Terrazas explained that the
remainder of the load got intercepted by the police.
Terrazas then placed an outgoing telephone call.
Individual #1 did not understand the conversation
because it occurred in Spanish. Shortly after the
conversation, a second Hispanic male (later identified
as Fredi Aragon) entered the residence through the
front door carrying a cooler. Individual #1, Huskisson,
Terrazas, and Aragon met in the kitchen of the
residence. Aragon opened the cooler, which initially
appeared to be empty. Aragon proceeded to dismantle
the cooler and removed ten saran wrapped packages.
Huskisson cut one of the packages open with a knife
and
the
package
appeared
to
contain
methamphetamine. Individual #1 told Huskisson that
he needed to return to his/her vehicle to retrieve the
money. Individual #1 exited the residence and gave a
prearranged signal to DEA agents indicating that
he/she had observed methamphetamine inside of the
residence.
17. In a substantial number of searches of
residences and businesses executed in connection with

App-51
the drug investigations in which I have participated,
the following kind of drug-related evidence have
typically been recovered:
a. Paraphernalia for packaging, weighing, and
distributing controlled substances, such as scales, and
plastic bags;
b. Books, records, and papers reflecting names,
addresses, telephone numbers, and other contact or
identification date relating to the distribution of
controlled substances;
c. Personal books and papers reflecting names,
addresses, telephone numbers, and other contact or
identification date relating to the distribution of
controlled substances;
d. Cash, currency, and records. relating to
controlled substances income and expenditures of
money and wealth, for example, money orders, wire
transfers, cashier's checks and receipts, bank
statements, passbooks, checkbooks, and check
registers, precious metals such as gold and silver,
precious gems such as diamonds, and safe deposit box
information, documents, and keys;
e. Documents indicating travel in interstate and
foreign commerce such as travel itineraries, plane
tickets, boarding passes, motel and hotel receipts,
passports and visas, credit card receipts, and
telephone bills;
f. Photographs of drug trafficking, their
associates, their property, proceeds, and controlled
substances;

App-52
g. Cellular telephones and all telephone
numbers stored within the memory of the cellular
telephones; and
h.

Firearms and other dangerous weapons.

18. In addition, during the course of such
residential searches, and other agents and I have also
found items of personal property that tend to identify
the person(s) in residence, occupancy, control, and
ownership of the subject premises. This identification
evidence consists of articles that people commonly
maintain in their residences, such as canceled mail,
deeds, leases, rental agreements, photographs,
personal telephone books, diaries, utility and
telephone bills, statements, identification documents,
and keys.
19. Based upon my training and experience, I am
aware that drug traffickers generally store their drugrelated paraphernalia in their residences or the
curtilage of their residences. Further, drug traffickers
generally maintain records relating to their drug
trafficking activities in their residences or business
places. Because drug traffickers often “front” (that is,
sell on consignment) controlled substances to their
customers, or alternatively, will be “fronted”
controlled substances from their suppliers, such
record keeping becomes necessary to keep track of
amounts paid and owed, and drug traffickers typically
maintain these records close at hand to readily
ascertain current balances. Often, drug traffickers
keep “pay and owe” records to show balances due for
drug payments in the past (“pay”) and for payments
expected (“owe”) to and from the trafficker's supplier
and the trafficker's dealers. Additionally, drug

App-53
traffickers typically maintain telephone and address
listings of customers and suppliers and keep them
immediately available so that they can efficiently
conduct their drug trafficking business.
20. It is also a common practice for traffickers to
conceal large sums of money, either the proceeds from
drug sales or monies to be used to purchase controlled
substances, at their residences and business places. In
this connection, drug traffickers typically use wire
transfers, cashier's checks, and money orders to pay
for controlled substances. Drug traffickers also
typically maintain evidence of such financial
transactions and records relating to income and
expenditure of money at their residences, business
places, or the curtilage of these locations.
21. Typically, drug traffickers possess firearms
and other dangerous weapons at their residences and
business places to protect their profits, supply of
drugs, and themselves from others who might attempt
to forcibly take the trafficker’s profits or supply of
drugs.
22. Large quantities of methamphetamine are
typically manufactured in Mexico, imported through
Mexico at the southwestern border, and transported to
Indiana from the southwestern border or other source
cities in the United States. Consequently,
methamphetamine traffickers often travel (or pay and
arrange for others to travel on their behalf) to and
from other locations to acquire the methamphetamine.
Such travel generally results in the generation of
various travel documents for the traveler, which are
also typically kept in residences.

App-54
23. This affiant knows that cellular telephones
may be important to a criminal investigation because
cellular
telephones
may
be
evidence
or
instrumentalities of crime, and/or may be used as
storage devices that contain evidence of crime in the
form of electronic data. In this case, the warrant
application requests permission to search and seize
records relating to the trafficking of the substances
identified in this investigation by the indicted
defendants in this case. These records constitute
evidence of crime. This affidavit also requests
permission to seize the cellular telephones that may
contain these records and search the memory of the
cellular telephones within the fourteen (14) days
during which this search warrant remains valid. This
affiant believes that, in this case, cellular telephones
are a container for evidence and instrumentalities of
the crimes under investigation.
24. My awareness of these drug trafficking
practices, as well as my knowledge of drug use and
distribution techniques as set forth in this Affidavit,
arises from the following:
a. My involvement in prior drug investigations
and searches during my career as a law enforcement
officer, as previously described;
b. My involvement on a number of accessions in
debriefing confidential informants and cooperating
individuals in prior drug investigations, as well as
what other agents have advised me when relating the
substance of their similar debriefings and the results
of their own drug investigations; and
c. Other intelligence information
through law enforcement channels.

provided

App-55
25. In a number of residential searches in prior
investigations that I have been involved in, the types
of evidence identified in Exhibit “B” have typically
been recovered from the main residence and from
other structures and areas on the properties being
searched, for example, other storage lockers/areas,
detached closets, containers, and yard areas
associated with the main residence and used in
connection with or within the curtilage of said
residence.
26. The government requests the Court to
maintain this Affidavit under seal until further Order
of Court. This Affidavit refers to an ongoing DEA
investigation and disclosure of this affidavit would
jeopardize the ongoing investigation. As a result, the
targets may flee the jurisdiction and destroy evidence
that DEA might otherwise obtain during the course of
the ongoing investigation.
27. This affiant does not expect that this search
warrant will be signed before 10:00 p.m. Because
Huskisson's residence and business premises may
contain controlled substances, and such evidence may
disappear during the evening, a nighttime search is
requested.
WHEREFORE, based upon the information
contained in this Affidavit, probable cause exists to
believe that the articles identified on Exhibit "B" are
present at the premises to be searched. In addition,
the government requests the Court to maintain this
Affidavit under seal until further Order of Court.
[handwritten: signature]
Michael D. Cline, Special Agent

App-56
Drug Enforcement Administration
Sworn to and subscribed to before me this 6th day of
February, 2016.
[handwritten: signature]
Debra McVicker Lynch
United States Magistrate Judge
United States District Court
Southern District of Indiana

App-57
Appendix F
RELEVANT STATUTORY PROVISIONS
21 U.S.C. § 841(a)-(b) (2010)
(a) Unlawful acts
Except as authorized by this subchapter, it shall
be unlawful for any person knowingly or
intentionally—
(1) to manufacture, distribute, or dispense, or
possess with intent to manufacture, distribute, or
dispense, a controlled substance; or
(2) to create, distribute, or dispense, or possess
with intent to distribute or dispense, a counterfeit
substance.
(b) Penalties
Except as otherwise provided in section 849, 859,
860, or 861 of this title, any person who violates
subsection (a) of this section shall be sentenced as
follows:
(1)(A) In the case of a violation of subsection (a)
of this section involving—
(i) 1 kilogram or more of a mixture or
substance containing a detectable amount of
heroin;
(ii) 5 kilograms or more of a mixture or
substance containing a detectable amount
of—
(I) coca leaves, except coca leaves and
extracts of coca leaves from which
cocaine, ecgonine, and derivatives of

App-58
ecgonine or
removed;

their

salts

have

been

(II) cocaine, its salts, optical and
geometric isomers, and salts of isomers;
(III) ecgonine, its derivatives, their salts,
isomers, and salts of isomers; or
(IV) any
compound,
mixture,
or
preparation which contains any quantity
of any of the substances referred to in
subclauses (I) through (III);
(iii) 280 grams or more of a mixture or
substance described in clause (ii) which
contains cocaine base;
(iv) 100 grams or more of phencyclidine
(PCP) or 1 kilogram or more of a mixture or
substance containing a detectable amount of
phencyclidine (PCP);
(v) 10 grams or more of a mixture or
substance containing a detectable amount of
lysergic acid diethylamide (LSD);
(vi) 400 grams or more of a mixture or
substance containing a detectable amount of
N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl]
propanamide or 100 grams or more of a
mixture or substance containing a detectable
amount of any analogue of N-phenyl-N-[1-(2phenylethyl)-4-piperidinyl] propanamide;
(vii) 1000 kilograms or more of a mixture or
substance containing a detectable amount of
marihuana, or 1,000 or more marihuana
plants regardless of weight; or

App-59
(viii)
50
grams
or
more
of
methamphetamine, its salts, isomers, and
salts of its isomers or 500 grams or more of a
mixture or substance containing a detectable
amount of methamphetamine, its salts,
isomers, or salts of its isomers;
such person shall be sentenced to a term of
imprisonment which may not be less than 10 years or
more than life and if death or serious bodily injury
results from the use of such substance shall be not less
than 20 years or more than life, a fine not to exceed
the greater of that authorized in accordance with the
provisions of title 18 or $10,000,000 if the defendant is
an individual or $50,000,000 if the defendant is other
than an individual, or both. If any person commits
such a violation after a prior conviction for a felony
drug offense has become final, such person shall be
sentenced to a term of imprisonment which may not
be less than 20 years and not more than life
imprisonment and if death or serious bodily injury
results from the use of such substance shall be
sentenced to life imprisonment, a fine not to exceed
the greater of twice that authorized in accordance with
the provisions of title 18 or $20,000,000 if the
defendant is an individual or $75,000,000 if the
defendant is other than an individual, or both. If any
person commits a violation of this subparagraph or of
section 849, 859, 860, or 861 of this title after two or
more prior convictions for a felony drug offense have
become final, such person shall be sentenced to a
mandatory term of life imprisonment without release
and fined in accordance with the preceding sentence.
Notwithstanding section 3583 of title 18, any sentence
under this subparagraph shall, in the absence of such

App-60
a prior conviction, impose a term of supervised release
of at least 5 years in addition to such term of
imprisonment and shall, if there was such a prior
conviction, impose a term of supervised release of at
least 10 years in addition to such term of
imprisonment. Notwithstanding any other provision
of law, the court shall not place on probation or
suspend the sentence of any person sentenced under
this subparagraph. No person sentenced under this
subparagraph shall be eligible for parole during the
term of imprisonment imposed therein.
(B) In the case of a violation of subsection (a) of
this section involving—
(i) 100 grams or more of a mixture or
substance containing a detectable amount of
heroin;
(ii) 500 grams or more of a mixture or
substance containing a detectable amount
of—
(I) coca leaves, except coca leaves and
extracts of coca leaves from which
cocaine, ecgonine, and derivatives of
ecgonine or their salts have been
removed;
(II) cocaine, its salts, optical and
geometric isomers, and salts of isomers;
(III) ecgonine, its derivatives, their salts,
isomers, and salts of isomers; or
(IV) any
compound,
mixture,
or
preparation which contains any quantity
of any of the substances referred to in
subclauses (I) through (III);

App-61
(iii) 28 grams or more of a mixture or
substance described in clause (ii) which
contains cocaine base;
(iv) 10 grams or more of phencyclidine
(PCP) or 100 grams or more of a mixture
or substance containing a detectable
amount of phencyclidine (PCP);
(v) 1 gram or more of a mixture or
substance containing a detectable
amount of lysergic acid diethylamide
(LSD);
(vi) 40 grams or more of a mixture or
substance containing a detectable
amount
of
N-phenyl-N-[1-(2phenylethyl)-4-piperidinyl] propanamide
or 10 grams or more of a mixture or
substance containing a detectable
amount of any analogue of N-phenyl-N[1-(2-phenylethyl)-4-piperidinyl]
propanamide;
(vii) 100 kilograms or more of a mixture
or substance containing a detectable
amount of marihuana, or 100 or more
marihuana plants regardless of weight;
or
(viii) 5
grams
or
more
of
methamphetamine, its salts, isomers,
and salts of its isomers or 50 grams or
more of a mixture or substance
containing a detectable amount of
methamphetamine, its salts, isomers, or
salts of its isomers;

App-62
such person shall be sentenced to a term of
imprisonment which may not be less than 5 years and
not more than 40 years and if death or serious bodily
injury results from the use of such substance shall be
not less than 20 years or more than life, a fine not to
exceed the greater of that authorized in accordance
with the provisions of title 18 or $5,000,000 if the
defendant is an individual or $25,000,000 if the
defendant is other than an individual, or both. If any
person commits such a violation after a prior
conviction for a felony drug offense has become final,
such person shall be sentenced to a term of
imprisonment which may not be less than 10 years
and not more than life imprisonment and if death or
serious bodily injury results from the use of such
substance shall be sentenced to life imprisonment, a
fine not to exceed the greater of twice that authorized
in accordance with the provisions of title 18 or
$8,000,000 if the defendant is an individual or
$50,000,000 if the defendant is other than an
individual, or both. Notwithstanding section 3583 of
title 18, any sentence imposed under this
subparagraph shall, in the absence of such a prior
conviction, include a term of supervised release of at
least 4 years in addition to such term of imprisonment
and shall, if there was such a prior conviction, include
a term of supervised release of at least 8 years in
addition
to
such
term
of
imprisonment.
Notwithstanding any other provision of law, the court
shall not place on probation or suspend the sentence
of any person sentenced under this subparagraph. No
person sentenced under this subparagraph shall be
eligible for parole during the term of imprisonment
imposed therein.

App-63
(C) In the case of a controlled substance in
schedule I or II, gamma hydroxybutyric acid
(including when scheduled as an approved drug
product for purposes of section 3(a)(1)(B) of the
Hillory J. Farias and Samantha Reid Date-Rape
Drug Prohibition Act of 2000), or 1 gram of
flunitrazepam,
except
as
provided
in
subparagraphs (A), (B), and (D), such person shall
be sentenced to a term of imprisonment of not
more than 20 years and if death or serious bodily
injury results from the use of such substance shall
be sentenced to a term of imprisonment of not less
than twenty years or more than life, a fine not to
exceed the greater of that authorized in
accordance with the provisions of title 18 or
$1,000,000 if the defendant is an individual or
$5,000,000 if the defendant is other than an
individual, or both. If any person commits such a
violation after a prior conviction for a felony drug
offense has become final, such person shall be
sentenced to a term of imprisonment of not more
than 30 years and if death or serious bodily injury
results from the use of such substance shall be
sentenced to life imprisonment, a fine not to
exceed the greater of twice that authorized in
accordance with the provisions of title 18 or
$2,000,000 if the defendant is an individual or
$10,000,000 if the defendant is other than an
individual, or both. Notwithstanding section 3583
of title 18, any sentence imposing a term of
imprisonment under this paragraph shall, in the
absence of such a prior conviction, impose a term
of supervised release of at least 3 years in addition
to such term of imprisonment and shall, if there

App-64
was such a prior conviction, impose a term of
supervised release of at least 6 years in addition
to such term of imprisonment. Notwithstanding
any other provision of law, the court shall not
place on probation or suspend the sentence of any
person sentenced under the provisions of this
subparagraph which provide for a mandatory
term of imprisonment if death or serious bodily
injury results, nor shall a person so sentenced be
eligible for parole during the term of such a
sentence.
(D) In the case of less than 50 kilograms of
marihuana, except in the case of 50 or more
marihuana plants regardless of weight, 10
kilograms of hashish, or one kilogram of hashish
oil, such person shall, except as provided in
paragraphs (4) and (5) of this subsection, be
sentenced to a term of imprisonment of not more
than 5 years, a fine not to exceed the greater of
that authorized in accordance with the provisions
of title 18 or $250,000 if the defendant is an
individual or $1,000,000 if the defendant is other
than an individual, or both. If any person commits
such a violation after a prior conviction for a
felony drug offense has become final, such person
shall be sentenced to a term of imprisonment of
not more than 10 years, a fine not to exceed the
greater of twice that authorized in accordance
with the provisions of title 18 or $500,000 if the
defendant is an individual or $2,000,000 if the
defendant is other than an individual, or both.
Notwithstanding section 3583 of title 18, any
sentence imposing a term of imprisonment under
this paragraph shall, in the absence of such a

App-65
prior conviction, impose a term of supervised
release of at least 2 years in addition to such term
of imprisonment and shall, if there was such a
prior conviction, impose a term of supervised
release of at least 4 years in addition to such term
of imprisonment.
(E)(i)
Except as provided in subparagraphs (C)
and (D), in the case of any controlled
substance in schedule III, such person shall
be sentenced to a term of imprisonment of not
more than 10 years and if death or serious
bodily injury results from the use of such
substance shall be sentenced to a term of
imprisonment of not more than 15 years, a
fine not to exceed the greater of that
authorized in accordance with the provisions
of title 18 or $500,000 if the defendant is an
individual or $2,500,000 if the defendant is
other than an individual, or both.
(ii) If any person commits such a violation
after a prior conviction for a felony drug
offense has become final, such person shall be
sentenced to a term of imprisonment of not
more than 20 years and if death or serious
bodily injury results from the use of such
substance shall be sentenced to a term of
imprisonment of not more than 30 years, a
fine not to exceed the greater of twice that
authorized in accordance with the provisions
of title 18 or $1,000,000 if the defendant is an
individual or $5,000,000 if the defendant is
other than an individual, or both.

App-66
(iii) Any sentence imposing a term of
imprisonment under this subparagraph shall,
in the absence of such a prior conviction,
impose a term of supervised release of at least
2 years in addition to such term of
imprisonment and shall, if there was such a
prior conviction, impose a term of supervised
release of at least 4 years in addition to such
term of imprisonment.
(2) In the case of a controlled substance in
schedule IV, such person shall be sentenced to a term
of imprisonment of not more than 5 years, a fine not
to exceed the greater of that authorized in accordance
with the provisions of title 18 or $250,000 if the
defendant is an individual or $1,000,000 if the
defendant is other than an individual, or both. If any
person commits such a violation after a prior
conviction for a felony drug offense has become final,
such person shall be sentenced to a term of
imprisonment of not more than 10 years, a fine not to
exceed the greater of twice that authorized in
accordance with the provisions of title 18 or $500,000
if the defendant is an individual or $2,000,000 if the
defendant is other than an individual, or both. Any
sentence imposing a term of imprisonment under this
paragraph shall, in the absence of such a prior
conviction, impose a term of supervised release of at
least one year in addition to such term of
imprisonment and shall, if there was such a prior
conviction, impose a term of supervised release of at
least 2 years in addition to such term of imprisonment.
(3) In the case of a controlled substance in
schedule V, such person shall be sentenced to a term

App-67
of imprisonment of not more than one year, a fine not
to exceed the greater of that authorized in accordance
with the provisions of title 18 or $100,000 if the
defendant is an individual or $250,000 if the
defendant is other than an individual, or both. If any
person commits such a violation after a prior
conviction for a felony drug offense has become final,
such person shall be sentenced to a term of
imprisonment of not more than 4 years, a fine not to
exceed the greater of twice that authorized in
accordance with the provisions of title 18 or $200,000
if the defendant is an individual or $500,000 if the
defendant is other than an individual, or both. Any
sentence imposing a term of imprisonment under this
paragraph may, if there was a prior conviction, impose
a term of supervised release of not more than 1 year,
in addition to such term of imprisonment.
(4) Notwithstanding paragraph (1)(D) of this
subsection, any person who violates subsection (a) of
this section by distributing a small amount of
marihuana for no remuneration shall be treated as
provided in section 844 of this title and section 3607 of
title 18.
(5) Any person who violates subsection (a) of this
section by cultivating or manufacturing a controlled
substance on Federal property shall be imprisoned as
provided in this subsection and shall be fined any
amount not to exceed—
(A) the amount authorized in accordance with
this section;
(B) the amount authorized in accordance with the
provisions of title 18;
(C) $500,000 if the defendant is an individual; or

App-68
(D) $1,000,000 if the defendant is other than an
individual;
or both.
(6) Any person who violates subsection (a), or
attempts to do so, and knowingly or intentionally uses
a poison, chemical, or other hazardous substance on
Federal land, and, by such use—
(A) creates a serious hazard to humans, wildlife,
or domestic animals,
(B) degrades or harms the environment or
natural resources, or
(C) pollutes an aquifer, spring, stream, river, or
body of water,
shall be fined in accordance with title 18 or
imprisoned not more than five years, or both.
(7) Penalties for Distribution.—
(A) In General.—Whoever, with intent to commit
a crime of violence, as defined in section 16 of title
18 (including rape), against an individual,
violates subsection (a) by distributing a controlled
substance or controlled substance analogue to
that individual without that individual’s
knowledge, shall be imprisoned not more than 20
years and fined in accordance with title 18.
(B) Definition.—For purposes of this paragraph,
the term ‘‘without that individual’s knowledge’’
means that the individual is unaware that a
substance with the ability to alter that
individual’s ability to appraise conduct or to
decline participation in or communicate

App-69
unwillingness to participate
administered to the individual.

in

conduct

is

First Step Act of 2018,
Pub. L. No. 115-391, § 401
Sec. 401. Reduce and Restrict Enhanced Sentencing
for Prior Drug Felonies.
(a) CONTROLLED
SUBSTANCES
ACT
AMENDMENTS.—The Controlled Substances Act (21
U.S.C. 801 et seq.) is amended—
(1) in section 102 (21 U.S.C. 802), by adding at
the end the following:
‘‘(57)
The term ‘serious drug felony’ means an
offense described in section 924(e)(2) of title 18,
United States Code, for which—
‘‘(A) the offender served a term of
imprisonment of more than 12 months; and
‘‘(B) the offender’s release from any term of
imprisonment was within 15 years of the
commencement of the instant offense.
‘‘(58)

The term ‘serious violent felony’ means—

‘‘(A) an offense described in section 3559(c)(2)
of title 18, United States Code, for which the
offender served a term of imprisonment of
more than 12 months; and
‘‘(B) any offense that would be a felony
violation of section 113 of title 18, United
States Code, if the offense were committed in
the special maritime and territorial
jurisdiction of the United States, for which
the offender served a term of imprisonment of
more than 12 months.’’; and

App-70
(2) in section 401(b)(1) (21 U.S.C. 841(b)(1))—
(A) in subparagraph (A), in the matter
following clause (viii)—
(i) by striking ‘‘If any person commits
such a violation after a prior conviction
for a felony drug offense has become
final, such person shall be sentenced to a
term of imprisonment which may not be
less than 20 years’’ and inserting the
following: ‘‘If any person commits such a
violation after a prior conviction for a
serious drug felony or serious violent
felony has become final, such person
shall be sentenced to a term of
imprisonment of not less than 15 years’’;
and
(ii) by striking ‘‘after two or more prior
convictions for a felony drug offense have
become final, such person shall be
sentenced to a mandatory term of life
imprisonment without release’’ and
inserting the following: ‘‘after 2 or more
prior convictions for a serious drug felony
or serious violent felony have become
final, such person shall be sentenced to a
term of imprisonment of not less than 25
years’’; and
(B) in subparagraph (B), in the matter
following clause (viii), by striking ‘‘If any
person commits such a violation after a prior
conviction for a felony drug offense has
become final’’ and inserting the following: ‘‘If
any person commits such a violation after a

App-71
prior conviction for a serious drug felony or
serious violent felony has become final’’.
(b) CONTROLLED SUBSTANCES IMPORT AND
EXPORT ACT AMEND- MENTS.—Section 1010(b) of
the Controlled Substances Import and Export Act (21
U.S.C. 960(b)) is amended—
(1) in paragraph (1), in the matter following
subparagraph (H), by striking ‘‘If any person
commits such a violation after a prior conviction
for a felony drug offense has become final, such
person shall be sentenced to a term of
imprisonment of not less than 20 years’’ and
inserting ‘‘If any person commits such a violation
after a prior conviction for a serious drug felony or
serious violent felony has become final, such
person shall be sentenced to a term of
imprisonment of not less than 15 years’’; and
(2) in paragraph (2), in the matter following
subparagraph (H), by striking ‘‘felony drug
offense’’ and inserting ‘‘serious drug felony or
serious violent felony’’.
(c) APPLICABILITY TO PENDING CASES.—This
section, and the amendments made by this section,
shall apply to any offense that was committed before
the date of the enactment of this Act, if a sentence for
the offense has not been imposed as of such date of
enactment.

